<html>
<title> - THE EMPLOYMENT SITUATION: OCTOBER 2009</title>
<body><pre>[Senate Hearing 111-383]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-383
 
                 THE EMPLOYMENT SITUATION: OCTOBER 2009

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2009

                               __________

          Printed for the use of the Joint Economic Committee




                  U.S. GOVERNMENT PRINTING OFFICE
55-564                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Edward M. Kennedy, Massachusetts
Loretta Sanchez, California          Jeff Bingaman, New Mexico
Elijah E. Cummings, Maryland         Amy Klobuchar, Minnesota
Vic Snyder, Arkansas                 Robert P. Casey, Jr., Pennsylvania
Kevin Brady, Texas                   Jim Webb, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                     Nan Gibson, Executive Director
               Jeff Schlagenhauf, Minority Staff Director
          Christopher Frenze, House Republican Staff Director


                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Amy Klobuchar, a U.S. Senator from Minnesota................     4
Hon. John Campbell, a U.S. Representative from California........     6
Hon. Michael C. Burgess, M.D., a U.S. Representative from Texas..     7
Hon. Maurice D. Hinchey, a U.S. Representative from New York.....     8
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....    10

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics, U.S. 
  Department of Labor, Washington, DC; Accompanied by: Dr. 
  Michael Horrigan, Associate Commissioner for Prices and Living 
  Conditions, Bureau of Labor Statistics; and Mr. Philip Rones, 
  Deputy Commissioner, Bureau of Labor Statistics................    11

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    28
Prepared statement of Representative Kevin Brady.................    28
Prepared Statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. 09-1331......    30
Chart titled ``Monthly Change in Nonfarm Payrolls''..............    60


                 THE EMPLOYMENT SITUATION: OCTOBER 2009

                              ----------                              


                        FRIDAY, NOVEMBER 6, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:34 a.m. in Room 
106, Dirksen Senate Office Building, The Honorable Carolyn B. 
Maloney (Chair) presiding.
    Representatives present: Maloney, Hinchey, Cummings, 
Snyder, Brady, Burgess, and Campbell.
    Senators present: Klobuchar.
    Staff present: Gail Cohen, Elisabeth Jacobs, Justin Ungson, 
Colleen Healy, Robert O'Quinn, Ted Boll, Jeff Schlagenhauf, 
Lydia Mashburn, and Rachel Greszler.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The committee will come to order. The Chair 
recognizes herself for five minutes for an opening statement, 
and we'll recognize other members, who likewise would like to 
make an opening statement.
    Last week, the Bureau of Economic Analysis reported that 
real Gross Domestic Product grew by 3.5 percent in the third 
quarter, and this is a welcome indication that we are moving 
toward economic recovery.
    Recently, we heard compelling evidence from Christina 
Romer, Chair of the President's Council of Economic Advisers, 
that the economy is rebounding, largely because of the Recovery 
Act that we passed last year.
    Despite the progress, this morning's employment report of 
190,000 jobs lost, and a unemployment rate of 10.2 percent, is 
a clear indication of the work we have left to do on behalf of 
our nation's families.
    The current Administration took office just ten short 
months ago. The economy was facing the worst crisis since the 
Great Depression. In January alone, over 700,000 jobs were 
lost.
    But job losses of about 600,000 or more per month, started 
as far back as November of 2008. Those punishing job losses 
continued for five straight months, and you can see that on the 
chart.
    However, thanks to the American Recovery and Reinvestment 
Act, we are seeing signs of recovery. Last week, the White 
House released reports from stimulus grant recipients. Those 
grant recipients account for just one-fifth of the total $787 
billion in spending and tax relief, but they alone have 
directly created or saved over 600,000 jobs.
    These numbers confirm we are on track to create or save at 
least 3.5 million jobs over the life of the Recovery Act, and 
job creation in the temporary help sector is a leading 
indicator of progress in the labor market. Since July, 
temporary help services has added 44,000 jobs--34,000 in 
October alone. While we have brought the economy back from the 
brink, we are not where we need to be yet, in terms of job 
creation.
    Although the pace of job loss has slowed substantially in 
recent months, the labor market continues to shed jobs. More 
than 15.7 million Americans are unemployed. More than a third 
of the jobless have been out of work for at least six months, 
and almost three million workers have been unemployed for a 
full year or longer.
    These long-term unemployment numbers reaffirm the need for 
extending unemployment benefits, which Congress has passed and 
the President will soon sign into law. Out-of-work Americans 
will soon have 14 additional weeks of unemployment benefits to 
help them weather the ongoing economic storm.
    Workers in the hardest-hit states will receive additional 
weeks of benefits. There are 9.3 million people working part-
time because they have been unable to find full-time jobs, an 
alarming increase since the recession began in December of 
2007.
    The growth of involuntary part-time work indicates that the 
job market recovery may be a slow process. As the economy 
rebounds, firms are likely to increase the hours of workers 
already on their payrolls, before they begin hiring new 
workers.
    The conversion of a part-time job into a full-time job 
means that the labor market will improve, while the standard 
indicators of progress, job creation and the unemployment rate, 
remain stalled.
    We have early indicators that this part-time to full-time 
conversion is already beginning to happen in some sectors of 
our economy. The manufacturing sector has increased callbacks, 
suggesting that workers whose hours had been cut are returning 
to full-time work.
    This is good economic news, but it also foreshadows a long, 
slow labor market recovery. At the Joint Economic Committee, we 
estimate that over four million Americans have seen their 
employment-sponsored health insurance coverage evaporate 
because of losing a job.
    By passing comprehensive health insurance reform, we will 
help lay the groundwork for assuring that losing a job no 
longer means losing access to affordable, quality health 
insurance coverage.
    Let there be no doubt that the road to a full labor market 
recovery will be long, and it will not be easy. We will be 
discussing ideas that will put Americans back to work, 
including aid to the states, that will create education and 
health jobs and infrastructure back, that will boost 
construction employment, and targeted tax credits that will 
support small businesses.
    Together, we can move this country toward new paths of 
prosperity for all.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 28.]
    Chair Maloney. I yield to Ranking Member, Mr. Brady.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Madam Chairwoman, thank you for this 
hearing, and, like you, I welcome Dr. Hall before the 
Committee.
    Today's numbers are bad news for American workers. The 
unemployment rate has reached 10.2 percent, a 26-year high.
    The economy has shed another 190,000 payroll jobs in 
October. The jobless rate for men is at an all-time high of 
10.7, an all-time high.
    Manufacturing and construction, the area that the White 
House promised the most job gains would occur, because of the 
stimulus, have actually shed another 60,000-plus jobs, and, 
overall, the economy has lost an astounding 2.89 million jobs 
since the stimulus was passed.
    Today's numbers are further proof that the Obama economic 
policies are a failure. In housing, in stimulus, and financial 
efforts, America continues to shed jobs.
    In comparison to our counterparts in Europe, in Canada, 
Australia, Japan, South Korea, and, of course, China, whose 
recoveries are much stronger and much quicker than America's, 
we are falling behind, we are losing jobs.
    A good example is looking at the President's own numbers. 
At this point, according to the White House, our unemployment 
rate, due to the stimulus, should be 7.8 percent. Today it is 
10.2 percent and rising.
    Clearly, we have a problem. Regarding the stimulus claims 
of 650,000 new jobs created or saved, there have been a series 
of investigative reports that reveal false reporting and 
corrupt data, that raise serious questions about the 
reliability of these White House claims.
    These investigations by the Wall Street Journal, the 
Associated Press, Chicago Tribune, Dallas Morning News, among 
others, are disturbing, and reveal numerous cases where job 
claims were exaggerated by thousands of workers, as many as ten 
times those actually impacted.
    Many jobs were counted twice, if not four times, and 
thousands don't exist at all. Starting Small, a shoe company in 
Kentucky, sold nine pairs of boots, the Army Corps of Engineers 
claimed that nine new jobs were created.
    In Texas, one of every four education jobs, supposedly 
created, were part-time summer jobs. The White House reported 
over 5,100 such jobs; it turns out to be closer to 25 permanent 
jobs.
    In Illinois, the Stetson University reported 483 jobs 
created, every part-time work study student was claimed. It 
turns out that about 18 had full-time employment.
    In the Willamette Public Schools--and this one's a kicker--
the state claimed that the stimulus had created 166 new jobs, 
but when the paper and reporters contacted the school 
superintendent, he said the number should be zero.
    One contractor, according to the Associated Press, claimed 
4,000 new jobs; it turned out to be a quarter of that. In many 
instances, workers were given a meager cost-of-living raise, 
and then reported that hundreds of jobs has been supposedly 
saved.
    Back in the President's own state, one school district was 
reported to have saved 665 jobs, in a district where they only 
have 600 workers.
    In my state, a Housing Authority received a grant for 
$26,000, enough to buy a medium-priced car, and reported they 
had created 450 new jobs. Beaumont, Texas, is using stimulus 
money to pay for childcare for workers who already have jobs.
    And you wonder if these are isolated instances? According 
to Health and Human Services, nearly nine of ten jobs reported 
by Head Start programs were inaccurately reported, nearly nine 
of ten.
    This raises disturbing questions about the claims of the 
White House, and I think it underscores what we've said all 
along, that this Administration has lost all credibility about 
stimulus claims and the numbers today, the 10.2 percent and 
growing unemployment, underscore that.
    Madam Chairwoman, I yield back.
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 28.]
    Chair Maloney. Thank you. Before I recognize Senator 
Klobuchar, I just want to express our sympathy for the Ft. Hood 
community. Our prayers go out to the wounded, with hopes for 
their full and speedy recovery, and our prayers are there for 
their families, too.
    Senator Klobuchar.

   OPENING STATEMENT OF THE HONORABLE AMY KLOBUCHAR, A U.S. 
                     SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you. We all share just the tragedy--it's not just a 
tragedy for these soldiers' families who feel it so deeply; 
it's for our entire country.
    Here they were, having, many of them, come back from battle 
or heading out to battle, in a place that they thought was 
safe, and this was just a senseless act of violence, and our 
thoughts are with them today.
    Chair Maloney, nearly two million Americans, including more 
than 13,000 Minnesotans, face the prospect of exhausting their 
unemployment benefits by the end of the year. As we know, in 
the past 28 days alone, over 200,000 Americans lost their 
unemployment benefits.
    That is why I'm glad that this Congress--it took too long 
for my tastes, but finally has been able to pass a bill that 
the President will be signing, to extend the unemployment 
benefits for those Americans who still struggling to find a 
job.
    I think the statistics are that for every job that's out 
there, there are six unemployed workers, and we know that there 
are also a number of people who have been looking for jobs, who 
have given up, and also people who have less hours.
    I think I said last month that I read somewhere a quote 
that when Wall Street gets a cold, Main Street still has 
pneumonia. That's what's been happening here.
    And when we look to the root causes of this, I think 
Congressman Brady can try to point fingers at this 
Administration, but I think you have to go back a lot farther 
to what got us to where we are today.
    There's many people to blame, from the decisions that were 
made on Wall Street, with highly-leveraged deals that no one 
understood, to loopholes that were opened up by Congress, to 
Administration officials in the last Administration, that let 
things go and let people like Bernie Madoff rip off people by 
$65 billion, without prosecuting a case or listening to 
whistleblowers when they came in.
    There is plenty of blame to go around. Individuals who 
decided to buy homes that were too expensive for what they 
could afford--but, to me, the issue is not pointing blame at 
either the Republicans or the Democrats or the President; the 
issue, for me, is going forward and what we do here.
    Clearly, as Chairman Maloney pointed out, there are some 
glimmers of hope in this economy, from the GDP to what we're 
seeing, at least a stemming of--when you look at the monthly 
job losses, way back when President Obama took over, to where 
they are now, my state, the unemployment is now down to 7.3 
percent.
    I think we should take note that we have a diverse economy 
that helps, but we've had a major focus on energy and clean 
energy jobs. In the last decade, our job growth, overall, has 
been 1.9 percent, but in the clean energy area, 11 percent. 
Why? We enacted one of the strongest renewable electricity 
standards in the country, and it's created a whole new 
generation of jobs.
    There are many things at play here, but I do believe that 
we--what we need to do, is to keep our eye on protecting and 
creating that safety net for the American people, as well as 
jump-starting our economy. That means that what we did 
yesterday with the unemployment benefits--which, by the way, 
I'm so pleased that we pushed on the Senate and that the House 
has now voted on--that we include not just states with high 
unemployment rates, but all states.
    As someone who wrote to me a few months ago, said, you 
know, the unemployment rate in Minnesota, at the time, it was 
eight percent, may be eight percent, but in my household, it's 
100 percent. That's what we've heard across the board, so I'm 
glad that we were able to agree. The vote in the Senate was 98 
to zero, so don't ask me why it took a month and why it was 
stalled out, but we were able to get that bill passed, along 
with an extension of the first-time-home-buyers tax credit, 
which has been very successful with jump-starting the housing 
market, as well as an additional $6500 tax credit for people 
that have lived in their homes for five years, and are ready to 
buy a new home.
    So that's what we're dealing with here, and as we talk 
about the numbers today, you know, Commissioner Hall, I always 
try to remind people, is that behind the numbers are real 
people, whether it's 7.3 percent unemployment or, as we're 
seeing nationally now, 10.2 percent.
    People like Jill, from White Bear Lake, Minnesota, who 
wrote to me, ``I am a 38-year old single mother of two. I have 
been applying for jobs from entry level to management within my 
field and otherwise, and I have yet to produce anything more 
than a couple rounds of interviews. That time is ticking away, 
my boys are looking forward to school starting, so they'll have 
a good breakfast and lunch offered to them each day, easing up 
on our own cupboards, which have been pretty bare. All I want 
is the opportunity to provide for my family.''
    We know there are many Americans saying that today, and 
that's why it was so important, the move that this Congress 
made this week, to extend unemployment benefits.
    Thank you, and I'm looking forward to getting into the 
nitty-gritty of these statistics, and always remembering that 
it's real people we're dealing with. Thank you.
    Chair Maloney. Mr. Campbell.

   OPENING STATEMENT OF THE HONORABLE JOHN CAMPBELL, A U.S. 
                 REPRESENTATIVE FROM CALIFORNIA

    Representative Campbell. Thank you, Madam Chair. These 
numbers tell us that last month, nearly 10,000 Americans lost 
their jobs, every business day in October, and the unemployment 
rate is 10.2 percent.
    This is very bad news, but it is, frankly, not that 
surprising, as this Administration and this Congress continue 
to pursue an ideological job-killing agenda, rather than an 
agenda trying to reverse this trend and trying to create jobs.
    This Administration and this Congress are still pursuing a 
government-run healthcare plan that even its proponents cannot, 
with any credibility, make an argument that it would create 
jobs, when, in fact, it will kill many jobs in one of the 
sectors in the economy where jobs have held up reasonably well.
    There is a global warming energy bill out there, which 
would artificially raise the cost of domestically-produced 
energy and evaporate millions more jobs in the energy sectors 
and all across businesses in America and a so-called stimulus 
plan that costs nearly $500,000 per job per year, if you accept 
the number of jobs that the Administration says they created or 
saved, and, as Mr. Brady clearly pointed out, those numbers are 
significantly and highly inflated.
    No, Madam Chair, every single government job is paid for by 
jobs in the private sector. If there are not jobs in the 
private sector to pay taxes, then there are no government jobs.
    Jobs need to be created in the private sector, and those 
are created by independent private businesses. When businesses 
hire someone, they take a risk.
    Now, that's what businesses do; they take risks, but when 
you hire someone and take that risk, you're expecting to spend 
some money to hire that person, that your revenue will increase 
by at least the amount of what you are spending to hire that 
individual.
    Right now, there's a lot of uncertainty out there. There's 
uncertainty in the general economy, uncertainty in the market.
    But this agenda of this Administration and Congress are 
adding additional uncertainties. Is the cost of hiring that 
person going to be even higher than their salary and benefits 
are today? Am I going to have additional taxes on that person? 
Am I going to have additional cost requirements, lawsuits 
generated by hiring that person?
    If that person uses energy in the businesses, is the cost 
of that energy going to continue to go up? There are so many 
additional uncertainties that I hear from many businesses, both 
large and small, in my District, that they just aren't sure 
where their costs, as driven by government policy, are going to 
go, so that adds to the uncertainties that are out there, and 
makes them less and less willing to take that risk of hiring 
another person and putting that person on payroll.
    Madam Chair, these numbers are bad. I hope that this is a 
wakeup call to the Administration and to the Congress, that the 
number-one priority in this country for all Americans, for both 
parties, and for the Administration and this Congress, should 
be jobs, jobs, and, again, jobs. I yield back.
    Chair Maloney. Thank you. Mr. Snyder, for five minutes.
    Representative Snyder. Madam Chair, in the interest of 
hearing Commissioner Hall, I think I will defer, although it's 
taking a lot of my fortitude to resist having a debate with Mr. 
Campbell about the importance of moving ahead on healthcare 
reform this weekend, but I will forego that in the interest of 
this discussion. Thank you.
    Chair Maloney. Okay, Mr. Burgess, for five minutes.

OPENING STATEMENT OF THE HONORABLE MICHAEL C. BURGESS, M.D., A 
                 U.S. REPRESENTATIVE FROM TEXAS

    Representative Burgess. Thank you, Madam Chair, and I thank 
Dr. Hall, the Commissioner, and the members of the panel for 
being here with us today.
    Like Mr. Campbell, I wish there were better news to report 
to the American people. You know, two weeks ago, we had a 
hearing in the Joint Economic Committee where we were told that 
the third-quarter earnings were so improved that we could now 
tentatively, hesitantly, timidly, but assuredly say that the 
recession was behind us.
    I couldn't help but feeling what we'd done was advanced 
fourth quarter earnings to the third quarter through the 
miracle of Cash for Clunkers, and we'll have to await those 
numbers at the end of the fourth quarter to see if this was 
true recovery or just a manufactured recovery.
    Elizabeth Warren, this morning, on one of the news shows, 
stated that we'd saved the people at the very top and forgot 
the folks at the bottom. You know, I can't help but feel that 
we don't need another federal program, we don't need another 
federal policy, we certainly don't need a second or third or 
fourth stimulus, whichever it would be, but I agree with Mr. 
Campbell, we do need to stop punishing success in this country.
    And the longer we do it, the longer we are going to see 
reports like the ones we have before us this morning. I think 
Congress needs to realize that the reason that unemployment 
continues to go up is because of the actions we've taken.
    In some of the legislation that we're working on today and 
this weekend, we're creating an environment in which employers 
are genuinely frightening. From the Consumer Product 
Improvement Act that we passed in December of last year, to 
this Financial Protection Act, from the energy tax, 
domestically-produced energy tax in the Cap-and-Trade bill, to 
this healthcare bill that is before Congress this weekend, we 
continue to unbalance and destabilize the very environment that 
employers are expected then to take those risks and go out and 
hire those individuals and create those new jobs.
    But they don't know what we're going to do to them next, 
and, certainly, our track record so far is nothing to give them 
any comfort.
    Now, Mark Twain once said, ``No man's life, liberty, or 
property is ever safe when the United States Congress is in 
session.'' His words were true a hundred years ago; they are 
true today.
    And we continue to produce these gargantuan bills without 
any regard to what we're doing to the environment that 
employers have to exist in to create jobs. These gargantuan 
bills that are laden--laden with unintended consequences.
    I reference the Consumer Product Safety Act that we passed, 
H.R. 4040, that was passed in December of last year, a 
necessary piece of legislation. We were all concerned about 
lead in toys, but we passed a lead standard that no one could 
even measure.
    Now we have libraries and secondhand shops and even 
printers' ink companies that are unsure of what the future 
holds for them, and so they're holding back on their 
inventories, they're holding back on their hiring.
    In my District, I've heard from multiple motorcycle dealers 
who have had to sequester their inventory, lest some child pull 
the battery out of a motorcycle, consume it, and die of lead 
poisoning.
    The healthcare bill that we've got before us this weekend, 
I think Mr. Campbell is right, the one sector of the economy 
besides the Federal Government, federal employment, the one 
sector that's growing, is in healthcare. And we're going to 
change that.
    And as we look at the statistics in front of us today, we 
see that unemployment has hurt men worse than women. Women are 
disproportionately represented in the healthcare sector. The 
healthcare sector employs more women than men, so perhaps, 
indeed, Congress will be an equal opportunity offender in this 
case, and we will allow that catch-up to occur in the 
unemployed--the gender discrepancy that's in the reported 
unemployment rates.
    We do have to help the unemployed. Again, quoting Elizabeth 
Warren this morning, on one of the news shows, ``We helped out 
Wall Street, and we left everyone else hanging.''
    This time, the Administration needs to be focused, and we 
do need to help Main Street. I'll yield back the balance of my 
time.
    Chair Maloney. The gentleman yields back. There seems to be 
a little revisionist history here. When President Obama took 
office, we were losing 700,000 jobs per month, from November 
2008 to roughly March 2009, and this month's job report is 
under 200,000.
    That's not good. Every job lost is a tragedy, particularly 
to that individual and their families, but we are moving in the 
right direction with 3.5 GDP and an improved job loss.
    Mr. Hinchey.

 OPENING STATEMENT OF THE HONORABLE MAURICE D. HINCHEY, A U.S. 
                  REPRESENTATIVE FROM NEW YORK

    Representative Hinchey. Well, thank you very much, Madam 
Chairman, and thank you, gentlemen, for the analysis that you 
do on the circumstances that we are obliged to deal with here. 
We thank you very much for the information that you are 
providing.
    This increase in the unemployment rate to 10.2 percent, 
which is up four-tenths of one percent, is, as I remember, the 
highest we've had since the 1980s, during the Reagan 
Administration, and so this is something that really needs to 
be dealt with and dealt with effectively.
    The deep economic circumstances that we're confronting have 
now been with us for at least 22 months, beginning in December 
of 2007, when this deep recession occurred during the Bush 
Administration. The actions that have been taken indicate that 
there is a substantial amount of effectiveness because the 
unemployment rate is not climbing as rapidly as it was, and the 
situation that we're confronting is becoming a bit more milder.
    This is something that we are going to have to understand 
and to deal with effectively. As we know from experience of 
economic circumstances such as this, including those dating 
back to the early 1930s, it is essential for the government of 
this country to deal with the economic conditions that we're 
facing.
    There's no question that the government, back several years 
ago, had a major responsibility for the conditions that we're 
confronting now, particularly with that huge wasteful spending 
of billions and billions and billions of dollars in Iraq in 
that illegal way.
    Nevertheless, the situation that we're dealing with today 
is critical and must continue to be dealt with. It's very 
obvious the stimulus bill which was passed has had a major 
positive effect.
    It has brought about an increase in jobs and increase in 
general economic conditions. That program has to continue.
    We know that only about 25 or 30 percent of that stimulus 
bill has actually been spent so far. More of that has to get 
out there, and to be dealt with effectively in the context of 
this recession, which we inherited and have now an obligation 
to deal with effectively.
    So, we thank you very much for the information that you are 
providing because it is absolutely essential to this Congress 
to continue to struggle to deal with this issue effectively.
    One of the issues that we're attempting to bring about now, 
of course, is this healthcare bill. The passage of this 
healthcare bill is, in and of itself, going to have a positive 
effect on the economic circumstances that we're dealing with.
    It's going to promote jobs and it's going to broaden the 
economic development that we've initiated over the course of 
these last seven or eight months.
    So, this has got to continue. We have got to have the 
strength to understand that investments internally in this 
country are absolutely essential to the maintenance of the 
economic circumstances here, and we haven't had adequate 
investment internally in this country in decades, and this is 
something that we have to continue to do, until this economy is 
brought back to its normal circumstances.
    We've also got to deal with this banking situation, which 
manipulated the economic conditions that we're confronting.
    So we thank you very much for all the information that you 
are providing to us, and the very, very important work that you 
do on a regular basis, and the information that you provide to 
us in this way every single month.
    Thank you very much. Let's just see if this Congress is 
going to continue to be strong enough to deal with this issue, 
and to stimulate this economy and bring it back to normality. 
Thanks very much.
    Chair Maloney. Thank you. Mr. Cummings, for five minutes.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam Chair. 
I want to thank you very much for holding this hearing. 
Certainly all of our condolences go to the soldiers and their 
families at Ft. Hood, Texas.
    This terrible tragedy, as President Obama has said, is 
something no soldier should have to endure on American soil. 
However, the heroism displayed at the scene by Army personnel 
and others, instantly turning to the injured, is a testimony to 
the courage and the readiness of the American military.
    The continued job losses suffered this past month are a 
stark reminder that, despite the progress we have achieved, 
we're still in the midst of the worst economic downturn since 
the Great Depression.
    Americans, as we say over and over again, are out of work 
through no fault of their own. They stand ready, willing, and 
able to work, and yet they have no place to report to in the 
morning.
    In my home state of Maryland, there are 25,000 people ready 
to go to work. To make matters worse, earlier this week, Black 
& Decker, one of the few remaining Fortune 500 companies in the 
state, announced plans to merge with Stanley Tool Works, and 
despite a move that will combine two of the largest toolmakers 
in America, the people in my state may lose hundreds, even 
thousands of jobs from this corporate combination.
    There are, however, green shoots in the economy. The stock 
market, despite dropping significantly since this recession 
began, has entered recovery. The Dow topped 10,000 points 
earlier this year, and, according to the New York Times, moved 
up 192 points yesterday, on reports of two consecutive months 
of retail sales increases, as well as lower-than-expected 
initial jobless claims.
    We know that jobs are the trailing indicator. They will not 
begin to return until employers believe we have recovered.
    The market acts as a barometer on that recovery, and 
indicators are hopeful. Both housing prices and stock 
portfolios are moving upward, and the thought of retirement 
brings hope for many, not fear.
    In the meantime, we have a duty as Congress to take the 
actions necessary to ensure recovery for all Americans. 
Yesterday, we continued our commitment to doing just that.
    After receiving Senate amendments to a bill introduced by 
Mr. McDermott to extend unemployment insurance benefits, the 
House approved the measure by an overwhelming margin. The 403 
to 12 vote was a comment on our priorities as a representative 
government. We can and we will provide for our constituents.
    Further, tomorrow we will attempt to make a truly historic 
proclamation about the nation's future and what we know to be 
an essential part of that future.
    I look forward to casting my vote for a healthcare system 
that keeps our nation healthy, keeps our citizens solvent, and 
places the priorities of Main Street above all.
    As happy as I was yesterday to ratify the actions of our 
counterparts here in the Senate to extend unemployment 
benefits, I know tomorrow will make me as proud as I have been 
at any point in my 13 years in the Congress.
    Along with hearings like this one, these are other actions 
that reinforce why we are here and what our responsibilities 
are to our constituents and, indeed, to our country.
    I welcome Dr. Hall's testimony and a productive discussion 
on the state of the labor force and the challenges remaining 
before us, and, with that, Madam Chair, I yield back.
    Chair Maloney. Thank you so much. I join you in welcoming 
Commissioner Hall. Dr. Keith Hall is the Commissioner of Labor 
Statistics for the U.S. Department of Labor.
    Prior to that, he served as Chief Economist for the White 
House Council of Economic Advisers. Prior to that, he was Chief 
Economist for the U.S. Department of Commerce.
    He also served ten years at the U.S. International Trade 
Commission.
    Welcome, Commissioner Hall, and you are recognized for as 
much time as you may consume. Thank you.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
     STATISTICS, U.S. DEPARTMENT OF LABOR; WASHINGTON, DC; 
 ACCOMPANIED BY: DR. MICHAEL HORRIGAN, ASSOCIATE COMMISSIONER 
 FOR PRICES AND LIVING CONDITIONS, BUREAU OF LABOR STATISTICS; 
  AND MR. PHILLIP RONES, DEPUTY COMMISSIONER, BUREAU OF LABOR 
                           STATISTICS

    Commissioner Hall. Thank you. Madam Chair and members of 
the Committee, thank you for the opportunity to discuss the 
employment and unemployment data we released this morning.
    In October, the unemployment rate rose to 10.2 percent, the 
highest rate since April of 1983, and non-farm payroll 
employment declined by 190,000. Since the start of the 
recession, payroll employment has fallen by 7.3 million.
    Job losses have averaged 188,000 over the past three 
months. The declines were much smaller and less widespread than 
they were last Fall and Winter; nevertheless, some industries 
are still experiencing notable employment declines.
    In October, construction lost 62,000 jobs; manufacturing, 
61,000 jobs; and retail trade, 40,000 jobs.
    In construction, October job losses were concentrated among 
non-residential specialty trades and heavy construction. 
Earlier in the recession, the residential components of 
construction accounted for the majority of job losses in the 
industry.
    In manufacturing, there were notable job cuts in machinery, 
non-metallic minerals, computer products and printing, in 
October.
    Retail job losses were concentrated in sporting goods and 
bookstores and in department stores. Earlier in the downturn, 
large job losses were spread across a wider range of retail 
industries.
    One of the few industries where employment continued to 
grow during the recession has been healthcare, which added 
29,000 jobs in October.
    The employment in temporary help services rose by 34,000 
over the month, the first significant increase in that industry 
since the start of the recession.
    Turning to measures from the Survey of Households, the 
unemployment rate increased from 9.8 to 10.2 percent over the 
month. Since the recession began, the jobless rate has 
increased by 5.3 percentage points, while the number of 
unemployed has more than doubled to 15.7 million.
    The numbers of long-term unemployed remain high. In 
October, 5.6 million workers had been jobless for six months or 
more.
    Among the employed, there were 9.3 million persons working 
part-time in October, who would have preferred full-time work. 
The number of such workers has doubled since the start of the 
recession.
    Among those outside the labor force, that is, persons 
neither working nor looking for work, the number of discouraged 
workers in October was 808,000, up from 484,000 a year earlier.
    These individuals are not currently looking for work, 
because they believe no jobs are available for them.
    In summary, non-farm payroll employment fell by 190,000 in 
October and the unemployment rate rose to 10.2 percent. My 
colleagues would now be glad to answer your questions.
    [The prepared statement of Commissioner Hall appears in the 
Submissions for the Record on page 30.]
    Chair Maloney. Thank you, Commissioner Hall. What are the 
bright spots in this month's jobs report?
    Commissioner Hall. I would say that, although 190,000 jobs 
is significant and is not a trivial loss, the last three 
months, the loss has been more moderate than the prior three 
months or the prior six months before that.
    The last three months, job losses averaged 188,000, and 
that is significantly lower than the unprecedented six-month 
period where we lost about 645,000 jobs per month.
    It's less widespread, the job loss. The job loss this month 
was concentrated in construction, manufacturing, and retail 
trade.
    However, most other industries still aren't producing jobs. 
Even though they're not losing jobs, they're sort of on hold 
and not really gaining jobs, either.
    In terms of bright spots, one of the reasons that I 
mentioned temporary help is that in the temporary help 
industry, although it's a one-month increase and we shouldn't 
read too much into that, that can be a leading indicator of 
coming job growth, but, obviously, we'll have to wait and see.
    Chair Maloney. Are there any indicators that overall job 
losses will continue to slow in coming months?
    Commissioner Hall. Well, we seem to have been in a phase 
for the last three months, where the job loss was remarkably 
steady in those three particular industries that I mentioned.
    I think, going forward, again, I think maybe the temp help 
is the best piece of news, potentially, going forward, and, 
then, of course, if you look at some of the non-labor-market 
data, some of that is consistent with an eventually-
strengthening labor market. Industrial production was up, the 
GDP numbers strong, especially the consumer spending portion of 
that, and that was encouraging, and then, of course, initial 
EOI claims, while they continued, the level dropped a bit.
    Chair Maloney. Are there any signs that in certain 
industries they're going to start expanding in the near future? 
Do you see any indicators in that direction?
    Commissioner Hall. I would say that for most industries, 
with the exception of, of course, healthcare and education, we 
either seem to be losing jobs or most have been in a holding 
pattern, so it's really hard to say whether they're going to 
start showing increases in the future.
    Chair Maloney. And what is the typical amount of time, 
after a contraction ends, before labor markets start showing 
signs of recovery?
    Commissioner Hall. Well, signs of recovery can lag a bit. 
In the last two recessions, the labor market lagged a fair 
amount, although I would say, though, there was much less lag 
in one sense. Once the last two recessions ended, it was a 
matter of a few months before there was a significant 
moderation in job loss, although job loss didn't end for quite 
a while.
    And then prior to the last two recessions, the labor market 
did start showing growth fairly soon after the end of the 
recession, so I'd say that the answer is that it depends.
    The last few recessions, it was fairly lagging, but in some 
prior recessions, it wasn't.
    Chair Maloney. Recently, some economists have estimated 
that it will take 10.7 million jobs created to get us back to 
the pre-recession unemployment rate, and, assuming that jobs 
are created at 2.8 million jobs per year, which was the best 
job creation record for any Administration, achieved by 
President Clinton, how long would you expect it to take to get 
back to full employment?
    Commissioner Hall. Let me first say that there's no 
guarantee where the unemployment rate is eventually going to go 
down to. So, what's considered the full employment unemployment 
rate seems to be something that isn't constant over long 
periods of time, so we don't know what the unemployment rate is 
eventually going to go down to after this recession is over.
    But to answer your question, we're talking about in excess 
of three years.
    Chair Maloney. Wow. Thank you. My time is expired. Mr. 
Brady.
    Representative Brady. Thank you, Madam Chairman. I would 
note that we probably ought not be revising history on this 
panel, although Reagan apparently didn't inherit a recession 
from Carter, Bush did--or Obama did from Bush. We probably 
ought to pick one side and one story and stick to it.
    I think the American public is tired of excuses. The truth 
is, this is President Obama's stimulus, it is his budget, it is 
his bailout, it is his housing programs, and it's time, I 
think, to take responsibility for those actions.
    I think that earlier this week we saw two gubernatorial 
candidates run on a blame-Bush platform and they'll not be 
taking the oath of office in their statehouses any time soon. 
The truth is, right now, we are seeing hundreds of thousands of 
jobs lost.
    Before I ask Commissioner Hall about some of the corrupt 
data within the stimulus reports, I want to ask, obviously, the 
size of the increase in the unemployment rate is devastating 
news. The loss of payroll jobs also exceeds expectations, yet, 
other countries, some of whom started with a higher 
unemployment rate than us, have lower unemployment rates than 
we do today.
    What is it about this Administration's policies, where our 
growth in jobs is poor, by comparison?
    Commissioner Hall. I wouldn't want to comment on a policy 
sort of question like that, what's the impact of current 
policy, since I want to try to stick to sort of the current 
state of the economy.
    Representative Brady. Okay, how about the role of increase 
in male unemployment? It's at an historical high for both adult 
men and men 16 years and over. When was the last time--do you 
know of any time where we've had unemployment that high for 
men, especially, as you noted, manufacturing and construction, 
which was supposed to be boosted by the stimulus, is seeing, 
again, more and more, 60 some thousand more jobs lost? What 
does that say about the economy?
    Commissioner Hall. Well, I don't have the data in front of 
me to focus on adult men, but the job loss has been very 
substantial. Right now, the job loss has been about 5.3 percent 
of the payroll jobs.
    That is the biggest job loss since the 1945 recession.
    Representative Brady. One of the reputations you have, and 
this Agency does, the Bureau has, is providing reliable data. 
Knowing, of course, that unreliable data underscores policy and 
credibility of the Bureau, we are seeing a lot of corrupt data 
coming out of the stimulus claims. What would you put in place, 
what policies would you put in place, to create reliable data, 
so that the American public isn't misled, that these numbers 
aren't falsified or misreported?
    How can we create a stimulus reporting process that 
actually tells the truth?
    Commissioner Hall. Well, I wouldn't want to comment on or 
offer advice on policy matters, on something like that.
    I can say that the Bureau, because we're an independent 
agency and we have a--we're very proud of our reputation as 
being objective, we try to focus on the basic state of the 
economy as it is now. All of our surveys, for the most part, 
focus on the current state of the economy, and we typically 
don't try and we certainly don't try in these surveys to 
separate out the effects from policy versus other things that 
are affecting the labor market.
    Representative Brady. Would it be helpful--I hadn't thought 
of this--would it be helpful to have an independent agency 
looking at these stimulus reports? Clearly, the panel, the way 
it's composed today, is basically run through the White House. 
They've lost credibility on this issue.
    Would an independent look at these stimulus numbers, maybe 
give the American public a little more assurance that they're 
accurate?
    Commissioner Hall. Well, again, I wouldn't want to comment 
on that. I can say that the Federal Economic Statistical 
Agencies work very hard to be independent and offer our best 
objective estimates of things.
    But I wouldn't want to comment on what should be done.
    Representative Brady. All right, thank you, Commissioner. I 
appreciate it.
    Chair Maloney. Thank you. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, and, thank you, 
Commissioner Hall.
    As you know, we just passed, as several of the members here 
have mentioned, the unemployment benefit bill, which we felt 
was very important to continue the safety net for workers who, 
through no fault of their own, are unable to find work.
    Could you discuss why that's important, as you look through 
history, to have that safety net in place, and why this type of 
benefit can carry some bigger bang for the buck than some other 
things we could be doing?
    Commissioner Hall. Well, I think I'm in the same boat as 
the last few questions, where I don't want to comment on policy 
or what would be an appropriate policy for something like an 
unemployment benefit insurance.
    Senator Klobuchar. Do you know if, through history, if we 
have extended them in cases like this, even when there was less 
unemployment?
    Commissioner Hall. Oh, I believe that is true, yes.
    Senator Klobuchar. Okay. One of the things I usually do is 
ask you some focus questions, which I'm sure I will do this 
morning, but I wanted, as a new line of questions here, as I've 
heard increasingly from small businesses about the difficulties 
that they're having, and that's why a number, 32 Senators, we 
recently sent a letter to the President asking him to help 
small businesses obtain the credit that they need. Do you have 
any numbers on the unemployment situation with small 
businesses?
    Commissioner Hall. We do. It's not real current. These 
surveys don't have enough detail for that, but we do have some 
that lag behind a few quarters, and we do have some data on 
that.
    We've probably got it through maybe the first quarter.
    Chair Maloney. Do you want to just send it to me?
    Commissioner Hall. Yeah, I'd be glad to.
    Senator Klobuchar. Okay, thank you. You went through some 
of the hardest-hit sectors of the economy. I think you 
mentioned retail, manufacturing, and construction. Where have 
we seen increases?
    Commissioner Hall. We had increases in temporary help 
services, and we had an increase in education and health 
services. Those were the main ones.
    There were some increases, but they weren't necessarily 
significant, and, by that, I mean statistically significant.
    Senator Klobuchar. How about the parts of the country? I 
know we always talk about that, with Michigan. Is Michigan 
still having the most difficulty, sort of the manufacturing 
states, and have you seen any improvements?
    As I mentioned, our state actually has gone down to 7.3 
percent after a high of 8.4 percent.
    Commissioner Hall. Let me see.
    Senator Klobuchar. And do you continue to see that kind of 
polka-dot, as opposed to regional issues where certain states 
seem to be doing better, but they're not as much concentrated 
in regions?
    Commissioner Hall. Sure. I would say that we still see sort 
of the polka-dot, you know, where different states have sort of 
different experiences.
    One of the issues that sometimes happens is our sample in 
particular states means the unemployment rate jumps around a 
little bit, so you don't want to read too much into one or two 
months. I don't mean to speak just to Minnesota for this.
    Senator Klobuchar. Okay, very good. What are the some of 
the states with the highest unemployment rates?
    Commissioner Hall. The highest unemployment rate is 
Michigan. That's 15.3 percent last month.
    Senator Klobuchar. And this is the last month's results?
    Commissioner Hall. Right. Michigan, Nevada, Rhode Island, 
California, South Carolina, Oregon, District of Columbia, 
Florida, these are double-digits. I know I'm reading off a long 
list.
    Senator Klobuchar. No, that's fine; it's helpful.
    Commissioner Hall. It's a long list. There's Florida, 
Kentucky, North Carolina, Alabama, Tennessee.
    Senator Klobuchar. And then what are the states with the 
lowest unemployment?
    Commissioner Hall. North and South Dakota, Nebraska, Utah, 
Iowa, so you can see there's no real regional pattern.
    Senator Klobuchar. Right, exactly. One of the things that 
you mentioned, which I think is most disturbing for people, is 
just the marginal unemployment rates or the people that--
discouraged workers, the people that have been looking for a 
job and then have sort of given up.
    So if you add those people in--can you also add in the 
people that have had their hours reduced--where are we really?
    Commissioner Hall. Well, that's our broadest measure of 
underutilization. The unemployment rate that I quoted is just 
one. We have actually six different measures of labor 
underutilization.
    The broadest one includes people who are part-time, who 
want to be full-time; and people who were discouraged and 
they've dropped out of the labor force, but they want to work, 
but they're just discouraged that they can't find a job. When 
you include those two groups, the unemployment rate--or the 
labor underutilization rate, goes up to 17.5 percent.
    Senator Klobuchar. Okay, and of that 17.5 percent, we know 
that--well, what number--10.2 percent is the classic unemployed 
people who are looking for work and can't find it, and then 
what part of it is our part-time workers?
    Commissioner Hall. Part-time, for economic reasons, I can 
give you the number. There are about 9.2 million people who are 
in that boat.
    Senator Klobuchar. Okay, and then the discouraged workers, 
the ones that have--can't find the work right now? I'm just 
trying to figure out, go from 10.2 to 17.5, right?
    Commissioner Hall. Sure, sure, yes.
    Senator Klobuchar. So, of that difference, is it, like, 
half of these part-time people or half discouraged or what's 
the breakdown?
    Commissioner Hall. The marginally attached is about 2.4 
million, and the part-time is around 9.3 million.
    Senator Klobuchar. Okay, and so most of it is people that 
have had their hours reduced?
    Commissioner Hall. Yes.
    Senator Klobuchar. All right, thank you very much.
    Chair Maloney. Okay, thank you. Mr. Campbell.
    Representative Campbell. Thank you, Madam Chair. First, a 
regional question: California's unemployment rate?
    Commissioner Hall. It is 12.2 percent.
    Representative Snyder. Is that for September?
    Commissioner Hall. Yes, that's the month before. The state-
level data lags a month, so this is September data.
    Representative Snyder. Thank you.
    Representative Campbell. Thank you, thank you for the 
clarification.
    Following up on the Senator, I'm trying to understand this 
as well. You mentioned in your testimony that there are 808,000 
discouraged workers. Are those people included in the 10.2, or 
have they dropped out of the base?
    Commissioner Hall. They've dropped out of the base; they're 
not included in the 10.2.
    Representative Campbell. Okay, so that's where you're 
saying that 17.5 percent of the workforce is either the 10.2 
percent unemployed or they have dropped out of the workforce, 
because they're discouraged, either now or this month or 
previously, or they are significantly underemployed; is that 
correct?
    Commissioner Hall. Yes.
    Representative Campbell. Okay, so that means, really--how 
long have we been keeping statistics like that? Because, 
basically, that's saying that nearly one out of five people in 
this country is either out of work or significantly 
underemployed.
    Commissioner Hall. We've had that full measure only since 
1994, I believe, but we have kept data on the people who are 
involuntary part-time. We've kept that number for a long time. 
We've kept that for a number of years.
    Representative Campbell. And where is then that, on an 
historical basis--I mean, obviously, since 1994, I'm sure this 
17.5 is going to be the highest we've ever recorded since that 
period, since we had a strong economy from, you know, '94 to 
2006 or 2008, really, so where--how does that underemployed, 
part-time, involuntary part-time currently relate to its 
historical levels?
    Commissioner Hall. That has increased--it may have 
increased more than any other recession. It certainly increased 
more than in any other modern recession, so it's gone up 
tremendously.
    Representative Campbell. Okay, all right. You mentioned 
manufacturing losing jobs, but yet there's been a lot of 
publicity in the last couple of weeks about this manufacturing 
index ticking over. I believe it's 50 or something. So how do 
you reconcile--I understand that job losses can and job losses 
can trail, but how do you reconcile the fairly significant 
losses in the manufacturing sector with all this kind of Wall 
Street publicity that manufacturing is getting better?
    Commissioner Hall. Yeah, those two things don't often--
don't work differently for too long, my point being that if the 
manufacturing numbers continue to stay strong, I do expect to 
see that certainly the job loss in manufacturing should 
moderate.
    It's not uncommon--I don't know that we're in this 
position--it's not uncommon, during the early stages of an 
expansion, to have productivity gains, which means, basically, 
that output increases faster than the labor market hours 
increase, so it wouldn't be surprising to see that get out 
ahead of the labor market.
    Representative Campbell. Another thing--and I supported the 
unemployment benefit bill yesterday on the floor, but there's 
been a lot of--I've heard a lot of anecdotal reports that many 
people don't really start looking for a job until their 
unemployment benefits run out, and that extensions in 
unemployment benefits actually exacerbate the unemployment 
situation.
    Is there any statistical evidence of that, or is it all 
anecdotal?
    Commissioner Hall. I believe I've seen some statistical 
evidence of that. I don't know that we have it, but I believe 
I've seen some economic work on that in the past.
    If you like, we can see what we can find on that?
    Representative Campbell. Yeah, I'd be curious.
    So, based on what you've seen or you know, there is some 
evidence that that, in fact, is the case, so that if we do 
extend unemployment benefits by 12 months, that we actually are 
to some degree perpetuating the unemployment of those people?
    Commissioner Hall. Yeah, I don't know; I don't know that I 
would characterize it that way, either, but--and this is just 
from my memory. I do believe, though, that the reemployment 
rates do go up near the end of benefits.
    One of the issues, though, of course, is, when people are 
getting back to work, are they getting back in jobs that they 
really want? So there's an issue there about that.
    Representative Campbell. Final question: I don't know if 
you have a thought on this, but when we looked up here, I mean, 
the Obama Administration totally blew their estimates on 
unemployment by, like, 30 percent, on what it would be now or 
what it was before.
    Why did they blow it so bad?
    Commissioner Hall. Having not been part of their forecasts, 
I----
    Representative Campbell. Then, a final question would be, 
most estimates were that unemployment wasn't going to be this--
that you weren't going to come in here with 10.2 today, that 
you would come in with 9.9 or something like that.
    Any thoughts on what went wrong, just in the last month?
    Commissioner Hall. No, actually, there's not an obvious 
explanation to me. The unemployment rate is a pretty reliable 
number, as is the payroll jobs numbers, so my experience 
sometimes is, if our two surveys, anyway, start to tell a 
little bit of a different story, give it a little time and 
they'll start to tell the same story, but that remains to be 
seen now.
    Chair Maloney. Thank you. Congressman Snyder.
    Representative Snyder. Following on to Mr. Campbell about 
the jump, given that this is a report for October, is there any 
seasonal variation? I mean our state certainly had a pretty wet 
construction season in September. Is there any seasonal 
variation that accounts for that jump?
    Commissioner Hall. Yeah, we do seasonally adjust our 
numbers, and what we're looking for when we seasonally adjust 
them is what normally happens at this time of year, so almost 
any number that we quote is relative to what we sort of expect 
from normal seasonal patterns.
    Representative Snyder. You had talked a bit ago, I guess it 
was also with Mr. Campbell--I know, in your--if I have a small 
family business and I work at it 20 hours a week, like a little 
antique shop or something, and I guess your surveyors call me 
up and I say, yeah, I was putting in my usual 20 hours a week, 
didn't make a dime, nobody bought an antique from me, you still 
count me as being employed, is that correct?
    Commissioner Hall. We've got two different surveys: The 
payroll survey takes advantage of the unemployment insurance 
records. That's where we survey establishments that pay 
unemployment insurance.
    What you describe sounds like somebody who's maybe not 
paying unemployment insurance, but our other survey, the one 
that we use to calculate the unemployment rate, is the 
household survey, where we get people on the phone.
    And under that circumstance, we would count that person as 
employed.
    Representative Snyder. Employed, even though he didn't make 
any money.
    Have you had to adjust how you look at this, since we have 
had more and more Internet-based businesses? I mean, I know a 
lot of folks that get out there and tinker on the Internet in 
terms of going to garage sales and putting stuff online and 
selling stuff. It's more of a hobby. My guess is that none of 
them would think that that's much of a business, but, according 
to your numbers, if they did more than 15 hours a week, that 
would count as a business for them and that would be 
employment. Is that correct? Have you had to----
    Commissioner Hall. There wouldn't be an hours restriction. 
I think it's just a matter of, if I'm correct, a matter of 
whether they answer the phone survey as to whether they're 
employed or not.
    Representative Snyder [continuing]. All right, well, I was 
going by the information you put here. I thought that it said 
Household Survey. ``People are classified as employed, if they 
work without pay at least 15 hours in a family business.''
    Commissioner Hall. Oh, okay.
    Representative Snyder. And so if I have--if I go to garage 
sales and pick up textbooks and put them online and I spend six 
hours at the garage sales and six hours packaging books and 
three hours counting my money, that's 15 hours.
    Mr. Rones. That category is really designed for family 
members who are working in a family business, so, for instance, 
if you had a restaurant and your son worked there for----
    Representative Snyder. So it would not be for the sole 
practitioner of an Internet business.
    Mr. Rones [continuing]. Right. So that person, if the 
intent is to run that as a business, and as any business person 
would know, you know, sometimes you make money and sometimes 
you don't, when you have a business, but if the intent is to--
if you perceive that as a job, and the intent is to run that as 
a business, then there's no hours restriction on that.
    Representative Snyder. As to the question about healthcare, 
healthcare is one of those countercyclical industries. What 
happens three years from now when we're at whatever we consider 
full employment in the United States, do people start quitting 
their nurse's aid jobs and their orderly jobs and their 
custodian jobs in the nursing home, can go get a construction 
job, and so we start seeing the Help Wanted signs go up? What 
happens?
    We've had several months now where we've got jobs added to 
healthcare. What happens when we get to full expansion?
    Commissioner Hall. You know, we don't have enough surveys 
that follow people, the same people, over time. That's actually 
one of the very difficult things for us to do. We just don't 
have that sort of longitudinal survey, so it's hard for us to 
know, for example, when the healthcare jobs stop, if they don't 
grow as quickly during an expansion. It's hard for us to know 
exactly what happened to those folks.
    Representative Snyder. All right.
    Commissioner Hall. They just sort of drop off.
    Representative Snyder. We're having the same phenomenon, I 
guess, in Arkansas, that Senator Klobuchar has in her state, 
which is, Arkansas's unemployment rate went from 7.4 to 7.1, 
and, of course, we don't have the number yet for September.
    I guess, just a technical--I guess we're one of the spots, 
and I would like to think that we're the canary that tells us 
that maybe we're going to head in the right direction as a 
country, but, just technically, why do the state rates come out 
a couple weeks later? Why don't they all come out at the same 
time?
    Commissioner Hall. A lot of it is that our national 
numbers, we do--this is a very high-volume survey, and we turn 
it around very quickly, and so what we're doing, is, we're 
focusing on the national number first.
    To give you an idea----
    Representative Snyder. It's the same data, though.
    Commissioner Hall [continuing]. It's the same data, 
exactly.
    Mr. Rones. The data that we report today from the Household 
Survey come directly from the Household Survey. We basically 
process them, put the report together in a couple of days, and 
report it to you.
    The state unemployment rates take that as an input to a 
statistical model. There's not enough sample in the survey 
itself, state-by-state. We use that as an input to a model, so 
at this point, now we're starting to develop the state models.
    We're working with the state labor market information shops 
to do that, so it takes a couple weeks beyond when we put these 
national data out, to put the state unemployment statistics 
out.
    Representative Snyder. Thank you, gentlemen, thank you, 
Madam Chair.
    Chair Maloney. Thank you very much. Congressman Burgess.
    Representative Burgess. Thank you. Dr. Hall, just to go 
back to some of the things that Mr. Campbell was asking you, my 
office also would be interested in that data on whether or not 
reemployment rates begin to increase or improve at the end of 
the benefit stream, so if you could make that generally 
available to the Committee, I think that would be very helpful.
    I was also struck that there really was not an ability for 
you to follow some of this data longitudinally. It seems like 
that would be helpful, but I guess just given the constraints 
of how you collect the data you cannot do that?
    Commissioner Hall. Yes.
    One of our difficulties is that we actually pay states to 
collect data for us. And while states can with the data they 
have collected they can follow people longitudinally somewhat, 
once they cross state borders we lose track of them.
    Representative Burgess. I see. Since we are talking about 
states, I am going to ask the obvious question, too: The Texas 
unemployment rate?
    Commissioner Hall. 8.2 percent in September.
    Representative Burgess. Which is obviously very 
significant.
    On the issue of the figure of the people who were 
unemployed, or long-term unemployed, discouraged, stopped 
looking for work, and that is a startling number. Let me just 
be sure I understand. Is that number additive to the baseline 
10.2 percent? Or does that include the 10.2 percent?
    Commissioner Hall. It is slightly different in that the 
10.2 percent is based on the labor force. When we get to 17.5 
percent we are actually expanding. We are not using the labor 
force for--we are adding the labor force to the marginally 
attached to the labor force, people who are not normally part 
of the labor force.
    Representative Burgess. So for the average person who was 
nominally interested in how the economy is doing and what is 
happening as far as recovery is concerned, what is a better 
figure for them to follow month to month?
    Commissioner Hall. To be honest, I would look at both.
    Representative Burgess. Look at both?
    Commissioner Hall. They generally tell the same story, but 
it is one of the reasons why we do these different measures of 
labor utilization. You can get interesting information from 
both measures.
    Representative Burgess. Well certainly the under-employed 
and discouraged/stopped looking for work is a much more 
startling number than even, as bad as the 10.2 percent, as Mr. 
Campbell said almost 1 of every 5 Americans now are falling 
into that under-employed or discouraged/stopped looking for 
work is significant.
    On some of the things that were brought up during my 
opening statement and the opening statements of others, the 
things that we are doing legislatively, the things we are doing 
in the regulatory environment, the things that employers, 
whether they are small or large employers, where they try to 
look out over the horizon, they are unsettled.
    What are we going to do with domestically produced energy? 
What is going to happen to the price of domestically produced 
energy? What are we going to do as far as the payroll tax if we 
enact an employer-mandate, or even an individual mandate on 
health insurance? Do you get a sense that is--that is having 
any effect on employers looking at adding or creating jobs 
within their respective places of employment?
    Commissioner Hall. I would not want to comment on that. It 
is hard to get a feel for something like that when we are 
collecting real basic data.
    Representative Burgess. Well I thought that was going to be 
your answer, and I appreciate the position that you take. I 
will just offer.
    This was some very recent polling data collected by a group 
called Woman Trend that surveyed primarily women-owned 
businesses which are--may have a higher propensity of small 
businesses, and the question asked about federal legislation 
proposed to require small business owners with payrolls greater 
than $500,000 to provide health insurance to their employees or 
face penalties, as a small business owner which of the 
following would you need to do?
    And 20 percent said reduce the number of employees at their 
company, 19 percent said not hire any new employees. So 40 
percent of those employers felt that it would affect their 
decisions as to whether or not to hire or add jobs at their 
places of employment.
    I have no other data for energy, financial regulation, but 
I do know that I see a steady stream of constituents into my 
office who voice such concerns of, yeah, I would like to do 
something in my business because things may be picking up in 
our area, but I don't know what you guys--meaning Congress--are 
going to do.
    Now we have seen some stuff from the Stimulus Bill last 
week. The big push was to articulate the number of jobs created 
by the Stimulus. Many of those highway construction jobs really 
seemed to be hit-or-miss.
    Historically do you have a sense, when we do a highway 
reauthorization bill, which we are supposed to do this year but 
which we will not do, do you see an effect on jobs created or 
saved when we do a highway reauthorization bill?
    Commissioner Hall. We are very much focused on just getting 
the overall number correct. And frankly there are thousands of 
things that could be at play in what has affected a number from 
month to month. So it is really hard for--would be hard for 
me--I would be very reluctant to sort of attribute changes to--
--
    Representative Burgess. But we do this on a recurring six-
year cycle, and I just wondered if you had ever observed a 
trend with Congress passing the highway reauthorization.
    Commissioner Hall [continuing]. Yeah, there might be a 
trend in the data. It's not something, the sort of work that we 
would naturally do.
    There might be somebody who might have done some work with 
our data on that, but I don't know.
    Representative Burgess. Are you able to define a job saved 
in economic terms?
    Commissioner Hall. Inherently the notion of jobs saved, 
you're sort of dealing with a counter-factual. You know, what 
would have been the data without something happening? And we 
are very much focused on just what the data is, not on that 
sort of approach.
    Representative Burgess. So we do not have a figure for jobs 
saved in your analysis?
    Commissioner Hall. Well for what we do with our surveys, 
no. We are only focusing on actual job counts.
    Representative Burgess. Thank you, Madam Chairman. I yield 
back.
    Chair Maloney. Thank you, very much.
    Mr. Hinchey for five minutes.
    Representative Hinchey. Thank you very much, Madam 
Chairman.
    And thank you very much for all the information that you 
are providing. It is very useful to us, and actually very 
essential.
    I was interested in what you were saying on a number of 
things, including the numbers of unemployment for the various 
states. What is the situation in New York?
    Commissioner Hall. The unemployment rate in New York is 8.9 
percent.
    Representative Hinchey. 8.9? And that was up from 8 point--
--
    Commissioner Hall. It has actually been steady for a couple 
of months at 8.9.
    Representative Hinchey [continuing]. Steady at 8.9? Yeah, 
okay. The number I had was 8.8, but 8.9 is the actual number.
    Commissioner Hall. Yeah. Sometimes there is a little 
difference because, if you're looking at the State. Sometimes 
the states release a number that is a little bit different from 
our number.
    Representative Hinchey. Okay. Could you give us an 
indication of the change in unemployment in the context of this 
economic recession since it began in the end of 2007?
    Commissioner Hall. Would you like just an overall picture? 
Or would you like a characterization of the job loss?
    Representative Hinchey. An overall picture.
    Commissioner Hall. Okay.
    Representative Hinchey. If you could do that.
    Commissioner Hall. Sure. Since the recession began we have 
lost 7.3 million jobs, and that is about 5.3 percent of the 
payroll jobs in the country. And this has been a 22-month 
recession. So what you have is the longest recession, and maybe 
the second-biggest percentage decline in payroll jobs of any 
recession.
    Representative Hinchey. And the rate of decline in 
employment since December of 2007 has fluctuated, and as I 
understand it based upon well, for example, this little chart 
here, the drop in unemployment rate reached its maximum in 
January of '09. And apparently since then the unemployment rate 
has continued, but it has continued at a slower rate.
    [The chart titled ``Monthly Change in Nonfarm Payrolls'' 
appears in the Submissions for the Record on page 60.]
    What is the situation there?
    Commissioner Hall. Yeah. I would say for this recession 
about the first eight months I think at the time I would have 
characterized it as a mild recession, maybe borderline 
recession.
    Then we had about six months of almost unprecedented job 
loss. That was 645,000 jobs per month at the very worst part 
which is a huge job loss.
    Since then we have had about three months of moderation, 
then another three months of moderation. At least the last 
three months we have been at a job loss level of about 188,000 
per month over the last three months.
    So it is significant, and it is job loss that is consistent 
with a recession anyway, but it is certainly a moderation over 
where it was.
    Representative Hinchey. So the moderation is something that 
is interesting and has some significance to it in and of 
itself.
    Have you done any kind of an analysis or examination of the 
significance of the so-called Stimulus Bill with regard to the 
moderation of this unemployment?
    Commissioner Hall. We haven't, and our surveys just are not 
designed to pick up something like that.
    Representative Hinchey. Pardon me?
    Commissioner Hall. Our surveys that we base this data on, 
they just are not designed to pick up something like what you 
are asking.
    Representative Hinchey. They are not designed to pick up 
something like that?
    Commissioner Hall. Well, I mean the effects of the Stimulus 
are in our numbers somewhere, but our surveys are not designed 
to sort of pull out the Stimulus effect from other things that 
are going on in the economy.
    You know, just to put it in perspective, our payroll jobs 
survey, we are measuring over 130 million payroll jobs every 
month.
    It is a large survey. We are sending it out to over 400 
thousand establishments that represent about 40 million people. 
And we turn it around in an average of about 12 days. So we are 
doing quite a lot to get a very good, accurate measure of the 
monthly jobs. To be able to try to separate out the Stimulus's 
effect from other effects, we just could not do it with our 
current survey.
    Representative Hinchey. Okay. One of the interesting things 
that you pointed out, however, was that healthcare generated 
29,000 jobs in October, and then subsequent to that you said 
that also education had been positive in generating a number of 
jobs.
    And of course the so-called Stimulus Bill focused on those 
two areas of the economy, health care and education, in 
addition to a number of other things. But most of the funding 
that has gone out so far--I think it is roughly 30 percent--do 
you have any close analysis of that? Have you looked at that?
    Commissioner Hall. No, we have not.
    Representative Hinchey. You don't? Okay. My estimation is 
it is something in the neighborhood of 30 percent of the 
Stimulus Bill that has actually gone out into play, leaving 70 
percent of it to be used over the course of hopefully the next 
several months.
    The impact of that Stimulus Bill seems to have had positive 
effects on health care and education. Do you have any analysis 
of that? Or are you just seeing that, yes, there was a 
concentration on healthcare and education of the Stimulus Bill 
and there was also an increase in jobs in those areas, but you 
don't make any connection between the two?
    Commissioner Hall. No, we haven't tried to make a 
connection.
    Representative Hinchey. You have not made a connection? 
Okay.
    Well thanks very much.
    Chair Maloney. Thank you very much.
    Mr. Cummings.
    Representative Cummings. Yes. What is our rate in Maryland?
    Commissioner Hall. The unemployment rate is 7.2 percent.
    Representative Cummings. Let me first of all thank you very 
much for your testimony. As usual you have done an outstanding 
job.
    Mr. Hall, some industries such as construction and 
manufacturing have been seeing sharp job losses for some time. 
Construction has been losing jobs since January of 2007, wiping 
out all of the jobs gained during the housing boom.
    This summer, however, construction job losses appeared to 
be slowing. Did this trend continue through October?
    Commissioner Hall. Yes. The job loss of 62,000, it's been 
in the same range now for about six months. But at the worst it 
was about almost double that.
    Representative Cummings. And were these losses concentrated 
in residential or nonresidential building?
    Commissioner Hall. Lately the concentration has been in 
nonresidential.
    Representative Cummings. And I notice, on another note, 
that retail trade--and you have here, department stores in 
particular I'm looking at--I think you say in your report that 
they lost 11,000 jobs? Is that right? Is that accurate, on page 
2 of your report?
    Commissioner Hall. On retail trade actually we have a loss 
of 40,000.
    Representative Cummings. 40,000?
    Commissioner Hall. Yes.
    Representative Cummings. And I know----
    Commissioner Hall. Oh, I'm sorry. Yes, the department store 
is 11,000, yes.
    Representative Cummings [continuing]. Just the department 
stores, yes.
    Commissioner Hall. Yes, I'm sorry.
    Representative Cummings. Now consumer confidence. You would 
think that that would probably be linked to that figure? Is 
that right? Is that a reasonable conclusion?
    Commissioner Hall. It is, although I will say that with my 
experience it is not closely linked. Big changes in consumer 
confidence really effect spending. Sometimes consumer 
confidence can move for maybe non-economic reasons that does 
not translate into higher or lower sales. But they are clearly 
linked.
    Representative Cummings. Now, Dr. Hall, can you discuss the 
differing unemployment rates across the education backgrounds? 
For example, what is the unemployment rate for those without a 
high school diploma? Those with a high school diploma? Those 
with a college degree?
    Commissioner Hall. Sure. For those without a high school 
diploma, the unemployment rate is currently 15.5 percent. High 
school graduates but not college, 11.2 percent. Some college, 9 
percent. And bachelor's degree and higher, 4.7 percent. So it 
is a very large difference.
    Representative Cummings. Interesting. And going back to my 
question that I always ask you, if you were--if the President 
were to call you today, right after this hearing, and ask you 
what the situation was in the country, in a 30-second 
explanation what would you tell him?
    Commissioner Hall. I would say the labor market continues 
to shed jobs, a significant number of jobs. And the bright 
spot, if it is a bright spot, is that the job loss has 
moderated over the last three months.
    Representative Cummings. And if he asked you what seems to 
be, if the trend continues at the rate we are going, knowing 
that you do not have a crystal ball, but just based upon your 
expertise in looking at these trends over the years, what would 
you say?
    Commissioner Hall. I would say that recessions do seem to 
have phases where the job loss moves in phases, but there is no 
guarantee that we are in a phase right now where the job loss 
is significant but not nearly as bad as it was before. Going 
forward, it would be hard to say.
    If some of the non-labor market data continues to look a 
bit stronger like it does now, I would think that eventually it 
would start to impact the labor market and we would start to 
see a moderation in job loss further.
    Representative Cummings. Now with regard to unemployment 
benefits, I know you are not trying to do policy, but logic 
tells us that if we have people who were getting no money and 
then we--you know, because they have lost their jobs--and then 
we have people who are getting unemployment benefits, in other 
words some money, that this should have some type of effect on 
unemployment with regard to other industries. Do you follow 
what I am saying? In other words, people will be spending? Is 
that a logical conclusion?
    Commissioner Hall. Yes. Although I have no expertise in the 
effects of the Unemployment Insurance Program, but logically 
that makes sense.
    Representative Cummings. Thank you, very much.
    Chair Maloney. Thank you very much, Commissioner Hall, for 
being here with us today to talk about the labor market, and we 
will continue to focus on this important monthly review, and we 
appreciate your time, and this meeting is adjourned.
    Commissioner Hall. Thank you.
    [Whereupon, at 10:55 a.m., Friday, November 6, 2009, the 
hearing was adjourned.]

                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee

    Last week, the Bureau of Economic Analysis reported that real gross 
domestic product grew by 3.5 percent in the third quarter. This is a 
welcome indication that we are moving toward economic recovery.
    Despite the progress, this morning's employment report of 190,000 
jobs lost and an unemployment rate of 10.2 percent is a clear indicator 
of the work we have left to do on behalf of our nation's families.
    The current Administration took office just ten short months ago. 
The economy was facing the worst crisis since the Great Depression.
    In January alone, 741,000 jobs were lost. But jobs losses of about 
600,000 or more per month started as far back as November of 2008. 
Those punishing job losses continued for 5 straight months.
    However, thanks to the American Recovery and Reinvestment Act, we 
are seeing signs of recovery.
    Last week, the White House released reports from stimulus grant 
recipients. Those grant recipients account for just one-fifth of the 
total $787 billion in spending and tax relief, but they alone have 
directly created or saved nearly 650,000 jobs.
    These numbers confirm we are on-track to create or save at least 
3.5 million jobs over the life of the Recovery Act. And, job creation 
in the temporary help sector is a leading indicator of progress in the 
labor market. Since July, temporary help services has added 44,000 
jobs--34,000 in October alone.
    While we have brought the economy back from the brink, we are not 
where we need to be yet in terms of job creation.
    Although the pace of job loss has slowed substantially in recent 
months, the labor market continues to shed jobs. More than 15.7 million 
Americans are unemployed.
    More than a third of the jobless have been out of work for at least 
six months.
    And almost 3 million workers have been unemployed for a full-year 
or longer.
    These long-term unemployment numbers reaffirm the need for 
extending unemployment benefits, which Congress has passed and the 
President will sign into law soon.
    Out-of-work Americans will soon have 14 additional weeks of 
unemployment benefits to help them weather the ongoing economic storm. 
Workers in the hardest-hit states will receive additional weeks of 
benefits.
    9.3 million people are working part-time because they have been 
unable to find full-time jobs--an alarming increase since the recession 
began in December 2007.
    The growth of involuntary part-time work indicates that the job 
market recovery may be a slow process.
    As the economy rebounds, firms are likely to increase the hours of 
workers already on their payrolls, before they begin hiring new 
workers.
    The conversion of a part-time job into a full-time job means that 
the labor market will improve while the standard indicators of 
progress--job creation and the unemployment rate--remain stalled.
    We have early indicators that this part-time to full-time 
conversion is already beginning to happen in some sectors of the 
economy.
    The manufacturing sector has increased ``callbacks,'' suggesting 
that workers whose hours had been cut are returning to full work 
schedules.
    This is good economic news--but it also foreshadows a long, slow 
labor market recovery.
    At the Joint Economic Committee, we estimate that over 4 million 
Americans have seen their employment-sponsored health insurance 
coverage evaporate because of losing a job.
    By passing comprehensive health insurance reform, we will help lay 
the groundwork for assuring that losing a job no longer means losing 
access to affordable, quality health insurance coverage.
    Let there be no doubt that the road to a full labor market recovery 
will be long, and it won't be easy.
    We will be discussing ideas that will put Americans back to work--
including aid to the states that will create education jobs, an 
infrastructure bank that will boost construction employment, and 
targeted tax credits that will support small businesses.
    Together, we can launch our nation onto a new path of prosperity 
for all.
                               __________
       Prepared Statement of Kevin Brady, Senior House Republican

    I am pleased once again to join in welcoming Dr. Hall before the 
Committee this morning.
    Today's employment report is bad news for American workers. During 
October, another 190 thousand payroll jobs were lost, and the 
unemployment rate increased to 10.2 percent. For adult men, their 
unemployment rate of 10.7 percent is an all-time record since 1948 when 
this series started.
    Last week's preliminary report estimated that real GDP increased by 
3.5 percent in the third quarter. Although I am hopeful that economic 
growth will continue this quarter, I am concerned about very sluggish 
economic growth next year and the deleterious effects of such a 
slowdown on jobs and the unemployment rate.
    For American workers, a jobless recovery is no recovery. Indeed, I 
fear that we may well be facing a ``job-loss'' recovery as U.C.L.A. 
economist Lee Ohanian recently warned.
    The October 2009 Blue Chip forecast predicts that the unemployment 
rate will average 10 percent or more through the first half of 2010 and 
will still be 9.6 percent at year-end. Moreover, the Blue Chip forecast 
also predicts that the unemployment rate will average 8.1 percent in 
2012. If this forecast were to prove true, the United States would 
still have a significantly higher unemployment rate during the next 
presidential election than when President Obama took office.
    In January, two of President Obama's top economists forecast that 
if the Congress were to enact the Obama stimulus bill, then the 
unemployment rate would remain at or below 8.0 percent during 2009. 
However, since President Obama signed the stimulus bill into law on 
February 17th, the unemployment rate has been far above 8 percent.
    Obama Administration officials continue to make extravagant, 
statistically dubious claims about how many jobs their stimulus plan 
has allegedly created or saved. In a blog on the White House website on 
Friday October 30th, Jared Bernstein claimed that the stimulus had 
created at least 650,000 jobs. This claim rests on a calculation 
prepared by the Recovery Accountability and Transparency Board and 
posted on Recovery.gov.
    On September 10, 2009, the Board's Chairman Earl E. Devaney, who 
had previously been Inspector General for the Department of the 
Interior, stated in his testimony before the Senate Committee on 
Homeland Security and Government Operations:

        Although the Board and Inspectors General will play a role in 
        data quality--chiefly by reviewing agencies' processes for 
        ensuring quality of the data--the Board's main goal will be one 
        of data integrity. That is, the Board will strive to ensure 
        that the data on Recovery.gov is a true reflection of what 
        recipients report . . . The responsibility for data quality, 
        however, rests with the recipients of the funds and the 
        agencies distributing the funds.

    In other words, the Board will not make sure that the underlying 
data reported by government agencies and recipients of stimulus funds 
are accurate and truthful, just that the data, which may be inaccurate 
or even false, are compiled correctly. This does not give the American 
people much confidence in any job creation reports posted on 
Recovery.gov.
    Disturbingly, many press reports have alleged that the 
Administration has counted some jobs that may not be connected to the 
stimulus at all and counted other jobs multiple times:

    <bullet>  On October 29th, the Associated Press reviewed the 
Administration's claim of 30,000 contract jobs ``created or saved.'' 
The AP found that the Child Care Association of Brevard County, 
Florida, reported that it had used $98,669 of stimulus funds to save 
129 jobs when the organization actually used these funds to give its 
129 employees a 3.9-percent pay raise. The AP also found that East 
Central Technical College in Douglas, Georgia, reported creating 200 
jobs when it had used its stimulus funds to buy trucks and trailers for 
commercial driving instruction, and a modular classroom and bathroom 
for a health education program.
    <bullet>  On November 4th, The Wall Street Journal reported that 
the Administration had overstated the number of jobs claimed by at 
least 20,000. For example, the Journal found that a Kentucky shoe store 
reported saving 9 jobs from an $889.60 contract to supply work boots to 
the Army Corps of Engineers.
    <bullet>  On November 5th, the Chicago Tribune uncovered 
inaccuracies in the Administration's claim that stimulus funds 
``created or saved'' over 14,000 education jobs in Illinois. For 
example, one Illinois school district reported saving 473 teaching jobs 
even though it employs only 290 teachers, while another reported saving 
665 jobs even though it employs only 600 workers.

    In contrast to these difficult-to-substantiate Administration 
claims, Bureau of Labor Statistics employment data show that the United 
States lost a net of 2.9 million payroll jobs since the Obama stimulus 
bill was signed into law. Moreover, the number of payroll jobs has 
declined in 49 of the 50 states.
    Dr. Hall, I look forward to hearing your testimony.

                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics

    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    In October, the unemployment rate rose to 10.2 percent, the highest 
rate since April 1983, and nonfarm payroll employment declined by 
190,000. Since the start of the recession, payroll employment has 
fallen by 7.3 million.
    Job losses have averaged 188,000 over the past 3 months. The 
declines are much smaller and less widespread than they were last fall 
and winter. Nevertheless, some industries are still experiencing 
notable employment declines. In October, construction lost 62,000 jobs, 
manufacturing 61,000, and retail trade 40,000.
    In construction, October job losses were concentrated among 
nonresidential specialty trades and heavy construction. Earlier in the 
recession, the residential components of construction accounted for the 
majority of the job losses in the industry. In manufacturing, there 
were notable job cuts in machinery, nonmetallic minerals, computer 
products, and printing in October. Retail job losses were concentrated 
in sporting goods and book stores and in department stores. Earlier in 
the downturn, large job losses were spread across a wider range of 
retail industries.
    One of the few industries where employment continued to grow during 
the recession has been health care, which added 29,000 jobs in October. 
Employment in temporary help services rose by 34,000 over the month, 
the first significant increase in that industry since the start of the 
recession in December 2007.
    Average hourly earnings of production and nonsupervisory workers in 
the private sector were up by 5 cents in October to $18.72. Over the 
past 12 months, average hourly earnings have risen by 2.4 percent. From 
September 2008 to September 2009, the Consumer Price Index for Urban 
Wage Earners and Clerical Workers (CPI-W) declined by 1.7 percent.
    Turning to measures from the survey of households, the unemployment 
rate increased from 9.8 to 10.2 percent over the month. Since the 
recession began, the jobless rate has increased by 5.3 percentage 
points, while the number of unemployed has more than doubled to 15.7 
million.
    The number of long-term unemployed remained high. In October, 5.6 
million workers had been jobless for 27 weeks or more.
    Among the employed, there were 9.3 million persons working part 
time in October who would have preferred full-time work. The number of 
such workers has doubled since the start of the recession.
    Among those outside the labor force--that is, persons neither 
working nor looking for work--the number of discouraged workers in 
October was 808,000, up from 484,000 a year earlier. These individuals 
are not currently looking for work because they believe no jobs are 
available for them.
    In summary, nonfarm payroll employment fell by 190,000 in October, 
and the unemployment rate rose to 10.2 percent.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC] [TIFF OMITTED] T5564.001
    
    [GRAPHIC] [TIFF OMITTED] T5564.002
    
    [GRAPHIC] [TIFF OMITTED] T5564.003
    
    [GRAPHIC] [TIFF OMITTED] T5564.004
    
    [GRAPHIC] [TIFF OMITTED] T5564.005
    
    [GRAPHIC] [TIFF OMITTED] T5564.006
    
    [GRAPHIC] [TIFF OMITTED] T5564.007
    
    [GRAPHIC] [TIFF OMITTED] T5564.008
    
    [GRAPHIC] [TIFF OMITTED] T5564.009
    
    [GRAPHIC] [TIFF OMITTED] T5564.010
    
    [GRAPHIC] [TIFF OMITTED] T5564.011
    
    [GRAPHIC] [TIFF OMITTED] T5564.012
    
    [GRAPHIC] [TIFF OMITTED] T5564.013
    
    [GRAPHIC] [TIFF OMITTED] T5564.014
    
    [GRAPHIC] [TIFF OMITTED] T5564.015
    
    [GRAPHIC] [TIFF OMITTED] T5564.016
    
    [GRAPHIC] [TIFF OMITTED] T5564.017
    
    [GRAPHIC] [TIFF OMITTED] T5564.018
    
    [GRAPHIC] [TIFF OMITTED] T5564.019
    
    [GRAPHIC] [TIFF OMITTED] T5564.020
    
    [GRAPHIC] [TIFF OMITTED] T5564.021
    
    [GRAPHIC] [TIFF OMITTED] T5564.022
    
    [GRAPHIC] [TIFF OMITTED] T5564.023
    
    [GRAPHIC] [TIFF OMITTED] T5564.024
    
    [GRAPHIC] [TIFF OMITTED] T5564.025
    
    [GRAPHIC] [TIFF OMITTED] T5564.026
    
    [GRAPHIC] [TIFF OMITTED] T5564.027
    
    [GRAPHIC] [TIFF OMITTED] T5564.028
    
    [GRAPHIC] [TIFF OMITTED] T5564.029
    
    [GRAPHIC] [TIFF OMITTED] T5564.030
    
  

                                  <all>

</pre></body></html>
